                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: A01 0700025                                                                 Page 1 of 1
I




          On July 2,2001, we received an allegation that a chemical engineer (Subject') submitted
          substantially similar proposals to multiple NSF programs and failed to disclose all current and
          pending support, in violation of grant proposal guidelines. In the course of our inquiry, we
          identified five areas of concern: (1) submission of similar proposals to multiple NSF programs;
          (2) submission of similar proposals to NSF and another Federal agency; (3) failure to disclose all
          current awards and pending proposals;\(4) failure to disclose extent of time commitment on
          current awards and pending proposals; and (5) excessive summer salary. .

          With respect to the first allegation, we determined that Subject submitted to a program and to a
          special competition, rather than submitting duplicate proposals to multiple programs. Both
          proposals were declined. We decided not to pursue this matter further. With respect to the second
          allegation, Subject allegedly submitted overlapping proposals to NSF and NIH, in violation of a
          requirement specific to NSF's Biological Sciences directorate. The NSF proposal was declined.
          We decided that this matter did not rise to a level which would merit further inquiry.

          The third and fourth allegations concern statements of Current and Pending Support (CPS). After
          a records review uncovered CPS inaccuracies in three of four proposals submitted by Subject in
          20011, we requested an accurate and complete statement of all support for the period. Subject
          promptly furnished this information and apologized for errors in his CPS forms. Although
          Subject failed to submit any revisions to his pending NSF proposal, we note that the proposal
          was declined. We also note that Subject subsequently submitted a new proposal, in which the
          statement of current and pending support appears to be accurate and complete.

          The fifth allegation was generated by our review of Subject's NSF awards. Specifically, we
          found that Subject's total summer salary on three active awards2exceeds NSF's limit of 219 of
          academic year salary by .5 months for Summer 2002. In response to a letter bringing the issue to
          his hention, Subject stated that he would rebudget the unallowable salary. In consultation with
          the NSF grants officer on the relevant award3,we determined that this is an acceptable solution.
                                              +
          Accordingly, this case is closed.

          ' [redacted]
            [redacted.]
            [redacted]


                             Agent                  Attorney               Supervisor                 AIGI

      Sign 1 date

                                                                                                     OIG-02-2
